APPENDIX

la
APPENDIX A
United States Court of Appeals
For the First Circuit
No. 19-2213
UNITED STATES,
Appellee,
v.
IFTIKAR AHMED,
Defendant,
SHALINI AHMED,
Interested Party - Appellant
Before
Howard, Chief Judge.
Thompson and Barron, Circuit Judges.
JUDGMENT
Entered: April 13, 2020
The court issued a show-cause order in this mat­
ter, flagging concerns as to finality. We have carefully
reviewed the response of Interested Party-Appellant
Shalini Ahmed, and the district court record. We note,
as have our sister circuits, that “[u]nder Rule 46[], a
declaration of forfeiture is the first of several steps
leading to actual forfeiture.” United States v. Vaccaro.

2a
931 F.2d 605, 606 (9th Cir. 1991). In short, the chal­
lenged order of the district court was neither an ap­
pealable final order nor an interlocutory order
appealable under 28 U.S.C. § 1292(a). In addition, in­
terested party-appellant has wholly failed to demon­
strate that the order in question, or any of the district
court’s underlying determinations, is otherwise imme­
diately appealable whether under the collateral order
doctrine or any other theory. See United States v. Gorski. 807 F.3d 451, 458 (1st Cir. 2015).
Accordingly, Shalini Ahmed’s appeal is DIS­
MISSED for lack of jurisdiction. See 1st Cir. Loc. R.
27.0(c).
The motion for a stay of proceedings is DENIED.
By the Court:
Maria R. Hamilton, Clerk
cc:
Carol Elisabeth Head
Donald Campbell Lockhart
Jordi de Llano Campos
Iftikar Ahmed
Shalini Ahmed

3a
APPENDIX B
United States District Court
District of Massachusetts
United States of America,
v.

)
)

Iftikar Ahmed,

Criminal Action
) No. 15-10131-NMG

Defendant

)

MEMORANDUM & ORDER
(Filed Nov. 7, 2019)
GORTON, J.
This motion for bond forfeiture arises from the
failure of defendant Iftikar Ahmed (“Mr. Ahmed” or
“defendant”) to comply with the conditions of his re­
lease on bail after he was charged with violations of
federal securities laws. Before the Court is the govern­
ment’s motion for bond forfeiture and a motion to in­
tervene filed by Shalini Ahmed (“Mrs. Ahmed”), the
defendant’s wife. For the reasons that follow, the gov­
ernment’s motion for bond forfeiture will be allowed
and the motion of Mrs. Ahmed to intervene will be de­
nied.
I.

Background

On April 1, 2015, the government filed a criminal
complaint against Mr. Ahmed for violations of federal
securities laws. At his initial appearance in the United

4a
States District Court for the District of Connecticut,
that court entered a release order which mandated
that he appear in court as required, advise the court of
any change of residence, submit to supervision by a
probation officer and sign a secured appearance bond
of $9,000,000. Defendant and his wife, Mrs. Ahmed, co­
signed the appearance bond which was secured by eq­
uity in their Greenwich, Connecticut residence. The
bond stated that if Mr. Ahmed failed to appear for court
proceedings or to comply with orders of the court, it
would be forfeited.
After his initial appearance, the District Court in
Connecticut entered an order requiring Mr. Ahmed to
answer charges pending in Massachusetts and trans­
ferred his posted bail to this District. On April 21,
2015, this Court held an initial appearance hearing at
which it entered a bail order adopting similar condi­
tions of release as were issued in the District of Con­
necticut but further limiting Mr. Ahmed’s travel to
Connecticut, Massachusetts and New York. On April
23, 2015, defendant and his wife signed an Escrow
Agreement and executed a warranty deed on their
Greenwich residence to secure the defendant’s compli­
ance with the terms and conditions of this Court’s bail
order.
At some time in May, 2015, the defendant ab­
sconded, apparently to India. The government now
seeks to have this Court declare that Mr. Ahmed’s se­
cured appearance bond is forfeited because he is a fu­
gitive.

5a
II.

Motion to Intervene

Mrs. Ahmed seeks to intervene in this proceeding
pursuant to Federal Rule of Civil Procedure 24 in order
to oppose the government’s motion for bond forfeiture.
She claims that as a co-signer of the appearance bond
she is an interested party under that Rule.
While Fed. R. Civ. P. 24 allows interested parties
to intervene in civil matters, it does not apply to crim­
inal cases. The Federal Rules of Criminal Procedure
contain no provisions applicable to intervention, alt­
hough courts have permitted intervention in limited
circumstances when “appropriate to assert the public’s
First Amendment right of access.” United States v.
Aref. 533 F.3d 72, 81 (2d Cir. 2008).
Mrs. Ahmed argues that the government’s motion
for bond forfeiture should be treated as a civil proceed­
ing and that this Court should therefore allow her to
intervene under Rule 24. In support of her argument,
Ms. Ahmed cites caselaw from other circuits which
suggests that, under some circumstances, an appeal of
an order for enforcement of bond forfeiture has been
treated as a civil proceeding for the purposes of deter­
mining whether the appeal was timely. Here, the gov­
ernment is seeking a declaration of forfeiture, not an
order to enforce, and timeliness is irrelevant. Mrs. Ah­
med has offered no applicable support for her conten­
tion that the instant motion should be dealt with under
the rules of civil procedure. Because this is a criminal
matter, Ms. Ahmed has no right to intervene under

6a
Fed. R. Civ. R 24 and therefore her motion will be de­
nied.
III. Motion for Bond Forfeiture
A defendant who executes an appearance bond
and subsequently fails to appear in compliance with
that bond is subject to forfeiture of the subject security
pursuant to 18 U.S.C. § 3146(d) and Federal Rule of
Criminal Procedure 46(f)(1). The statute governing
penalty for failure to appear states in relevant part
[i]f a person fails to appear before a court as
required, and the person executed an appear­
ance bond . .. the judicial officer may . . . de­
clare any property ... to be forfeited to the
United States.
18 U.S.C. § 3146(d). Under Fed. R. Crim. P. 46(f)(1) a
court “must declare the bail forfeited if a condition of
the bond is breached.”
Mr. Ahmed has deliberately flouted his bail condi­
tions. He has failed to appear in court, has not reported
to a probation officer and is a fugitive. His refusal to
return to Massachusetts has prevented the govern­
ment from prosecuting him. Therefore, this Court will
allow the government’s motion and declare the bail for­
feited.
Once the bond is declared forfeited, Mrs. Ahmed,
as a co-surety, has the right to move to have the forfei­
ture set aside pursuant to Fed. R. Crim. P. 46(f)(2) if
the surety later surrenders her husband into custody

7a
or if it is found that justice does not require bail forfei­
ture.
ORDER
For the foregoing reasons, the government’s Mo­
tion for Declaration of Bond Forfeiture (Docket No.
293) is ALLOWED and defendant’s motion to inter­
vene (Docket No. 295) is DENIED without preju­
dice.
So ordered.
/s/ Nathaniel M. Gorton
Nathaniel M. Gorton
United States District Judge
Dated November 7, 2019

8a
APPENDIX C
United States Court of Appeals
For the First Circuit
No. 19-2213
UNITED STATES,
Appellee,
v.
IFTIKAR AHMED,
Defendant,
SHALINI AHMED,
Interested Party - Appellant
Before
Howard, Chief Judge.
Torruella, Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: July 28, 2020
Interested Party-Appellant Shalini Ahmed has
filed a Petition for Rehearing and Petition for Rehear­
ing En Banc. The petition for rehearing having been
denied by the panel ofjudges who decided the case, and
the petition for rehearing en banc having been submit­
ted to the active judges of this court and a majority of

9a
the judges not having voted that the case be heard en
banc, it is ordered that the petition for rehearing and
petition for rehearing en banc be DENIED.
By the Court:
Maria R. Hamilton, Clerk
cc:

Carol Elisabeth Head
Donald Campbell Lockhart
Jordi de Llano Campos
Iftikar Ahmed
Shalini Ahmed

10a
APPENDIX D
Federal Rules of Criminal Procedure Rule 46(f) “Bail
Forfeiture” provides:
(1) Declaration. The court must declare the bail for­
feited if a condition of the bond is breached.
(2) Setting Aside. The court may set aside in whole or
in part a bail forfeiture upon any condition the court
may impose if:
(A) the surety later surrenders into custody the
person released on the surety’s appearance bond; or
(B) it appears that justice does not require bail
forfeiture.
(3) Enforcement.
(A) Default Judgment and Execution. If it does
not set aside a bail forfeiture, the court must, upon the
government’s motion, enter a default judgment.
(B) Jurisdiction and Service. By entering into a
bond, each surety submits to the district court’s juris­
diction and irrevocably appoints the district clerk as
its agent to receive service of any filings affecting its
liability.
(C) Motion to Enforce. The court may, upon the
government’s motion, enforce the surety’s liability
without an independent action. The government must
serve any motion, and notice as the court prescribes,
on the district clerk. If so served, the clerk must

11a
promptly mail a copy to the surety at its last known
address.
(4) Remission. After entering a judgment under Rule
46(f)(3), the court may remit in whole or in part the
judgment under the same conditions specified in Rule
46(f)(2).

